<html>
<title> - THE IMPORTANCE OF THE NEW START TREATY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 THE IMPORTANCE OF THE NEW START TREATY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            DECEMBER 4, 2019
                               __________

                           Serial No. 116-83
                               __________

        Printed for the use of the Committee on Foreign Affairs


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                   

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-543PDF                 WASHINGTON : 2020   



                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                     
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mullen, Admiral Michael G., USN (Ret.), Nuclear Threat 
  Initiative, Former Chairman of the Joint Chiefs of Staff.......     7
Gottemoeller, Rose, Former NATO Deputy Secretary General and 
  Former Under Secretary of State for Arms Control and 
  International Security Affairs.................................    20
Vaddi, Pranay, Fellow, Nuclear Policy Program, Carnegie Endowment 
  for International Peace........................................    29
Myers, Kenneth, Former Director of the Defense Threat Reduction 
  Agency and U.S. Strategic Command Center for Combating Weapons 
  of Mass Destruction............................................    42

                                APPENDIX

Hearing Notice...................................................    70
Hearing Minutes..................................................    71
Hearing Attendance...............................................    72

       STATEMENTS FOR THE RECORD SUBMITTED FROM COMMITTEE MEMBERS

Statement for the record sumbitted from Representative Connolly..    73

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from Chairman 
  Engel..........................................................    74
Responses to questions submitted for the record from 
  Representative Guest...........................................    76
Responses to questions submitted for the record from 
  Representative Allred..........................................    77

 
                 THE IMPORTANCE OF THE NEW START TREATY

                      Wednesday, December 4, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2 p.m., in room 
2172 Rayburn House Office Building, Hon. Eliot Engel (chairman 
of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record 
subject to the length limitation in the rules.
    We have a major operation here to do. We have got to put a 
pillow here.
    [Laughter.]
    Chairman Engel. Without objection, all members will have 5 
days to submit statements, extraneous material, and questions 
for the record subject to the length limitation in the rules.
    We are here this afternoon to discuss the importance of the 
new Strategic Arms Reduction Treaty, what we call New START, as 
a tool for limiting the most destructive weapons ever created 
as well as the implications of that treaty expiring, which is 
set to happen in just over a year.
    To our panel of distinguished witnesses, welcome to the 
Foreign Affairs Committee. Welcome to members of the public and 
the press as well.
    I now recognize myself for an opening statement.
    Since a strong bipartisan majority in the Senate ratified 
New START in 2010, the treaty has served American interests 
well.
    It put in place tough limits on Russia's nuclear arsenal. 
Its strong verification measures have allowed us to make sure 
Putin does not cheat, as he has done on other agreements, and 
the treaty gave us the flexibility to maintain an effectively 
safe nuclear deterrent to allow us to deal with any threats 
America faces.
    But to understand the full importance of New START, we have 
to go back to the start of the cold war. Roughly a quarter 
century after the end of World War II the standoff between the 
United States, along with our allies, and the Soviet Union was 
marked by an arms race.
    Both sides stockpiled enough devastating weapons to destroy 
the world many times over. My age is the age where we thought 
the Soviet Union would live forever and be our enemy forever.
    Then 50 years ago, the Nixon Administration launched the 
Strategic Arms Limitation Talks, or SALT. These talks were 
based on the notion that arms control rather than an arms race 
is the best way to keep the Soviet Union, now known as Russia, 
in check while avoiding a calamitous nuclear war.
    The SALT talks produced two groundbreaking agreements that 
were ratified in 1972 and in the years that followed. A 
bipartisan consensus formed around prudent arms control 
agreements as a key tool in advancing American security and 
keeping the Soviets at bay.
    Virtually every president since then has recognized the 
importance of arms control. President Carter signed the SALT II 
agreement, the first President Bush signed the original START 
treaty with Mikhail Gorbachev in 1991, and President Obama 
negotiated its successor, the New START treaty.
    At the time New START was signed, that strong bipartisan 
consensus supporting arms control still prevailed. Seventy-one 
senators voted to ratify. Former secretaries of State of both 
parties spoke out in favor of it.
    It was a clear reflection of the old adage that guides our 
committee's work, and Mr. McCaul and I have said this many 
times, that politics should stop at the water's edge.
    But in the years since then, we have seen a few strains of 
criticism. Some people just do not like arms control for 
ideological or political reasons.
    Some would welcome a new arms race and some just seem 
intent on undoing anything that President Obama touched. If the 
treaty's opponents get their way, it will draw its last breath 
in February 2021.
    At that point, absent some extension, Russia's nuclear 
forces would be completely unconstrained for the first time 
since 1972.
    Some of us here remember those days I mentioned before. We 
remember air raid drills and duck-and-cover. We remember Soviet 
nuclear weapons based 90 miles off the coast of Florida in 
Cuba.
    We remember when the threat of nuclear annihilation loomed 
over our lives. And when I look at Russia today, I see an 
unpredictable adversary. I see an autocratic leader in Vladimir 
Putin, hell bent on undermining democracy, splintering the 
West, and restoring some 21st century version of the Soviet 
empire.
    The president suggested yesterday that Russia might not be 
a foe. Well, guess what? I believe he is wrong. The last thing 
that we should want is for Vladimir Putin to massively expand 
his nuclear arsenal without any limits.
    No treaty is perfect. But with the clock ticking on New 
START, we need to ask whether we are better off with or without 
it. The answer is obvious to me and I hope the Trump 
Administration does the right thing and extends the treaty.
    I look forward to hearing from our witnesses on these 
issues. I look forward to their testimony, pending which I 
recognize my friend, the ranking member, Mr. McCaul of Texas, 
for any opening remarks.
    Mr. McCaul. Thank you, Mr. Chairman, for holding this 
important hearing. This committee and you and I personally have 
worked extensively in a bipartisan manner over the years to 
highlight the continued threat that Vladimir Putin poses to the 
United States and to our interests abroad.
    Under the Putin regime, Russia has invaded Georgia and 
Ukraine, leveled devastating cyber-attacks and disinformation 
campaigns against our Western allies and meddled in our last 
Presidential election.
    The Kremlin has also imprisoned and assassinated political 
opponents like Boris Nemtsov, attacked protestors, propped up 
the bloodthirsty Assad regime in Syria, sent submarine warfare 
capabilities to spy off of our coasts, and aided socialist 
dictator Nicolas Maduro in Venezuela.
    In addition to all this, Putin is developing new weapons 
systems that violate international agreements that Russia 
claims to adhere to.
    In light of this, I agreed with President Trump's decision 
to withdraw from the Intermediate-Range Nuclear Forces Treaty 
earlier this year after Russia's longstanding and clear 
violations.
    Arms control treaties are some of the most important 
international agreements that Congress is called upon to 
consider. The New Strategic Arms Reduction Treaty, or New 
START, is the latest of these agreements, having entered into 
force in 2011.
    Unless extended in some manner, it is set to expire in 
February 2021. New START is not perfect. It only considers 
deployed nuclear weapons and does not limit or reduce the 
number of non-deployed warheads.
    In addition, it has not stopped Russia from modernizing its 
weapon delivery systems or prevented China from building up its 
nuclear stockpile.
    However, the treaty has been successful, resulting in a 30 
percent reduction in deployed nuclear warheads and a 50 percent 
reduction in deployed launched vehicles.
    Jointly, the United States and Russia have exchanged more 
than 16,000 notifications about the movement of launchers and 
conducted close to 300 onsite inspections in both countries.
    According to the State Department's most recent New START 
implementation report, with the treaty there, quote, ``would be 
a decrease in our knowledge of Russia's strategic forces,'' end 
of quote, and I find that very instructive here today.
    It also contributes to the national security of the United 
States. Yesterday, the lead arms control official at the State 
Department confirmed that Russia remains in compliance with the 
treaty.
    Despite these successes, we must be realistic about the 
future. Putin has proudly announced weapons systems that 
Russia's developing and deploying, such as the SS-30, Satan 2 
ICBM, and the Avangard hypersonic reentry vehicle that will be 
included under the rubric of the treaty.
    But Russia's advances in hypersonics and other so-called 
exotics have also resulted in new weapons systems that were not 
feasible when New START was negotiated and, thus, would not be 
subject to the treaty's restrictions.
    I know that a few of my colleagues have strong concerns 
about extending New START. I understand and share some of these 
concerns and, as they have noted, the treaty places no limits 
on the deployment or stockpile of Russian tactical nuclear 
weapons or some of their new hypersonic missiles which would--
may not be covered by the treaty itself.
    I also understand the concern that China is not part of the 
New START or any similar treaty restricting its nuclear 
hypersonic weapons.
    And while I would like to examine the feasibility of 
expanding New START to address China's nuclear arsenal and 
Russia and Chinese exotic weapons, they have made it clear that 
they are not interested in doing so.
    And so because of this, we need to ensure that New START is 
extended in a responsible manner and that a strategic dialog 
begin as soon as possible to negotiate a new arms control 
agreement with Russia and possibly China that addresses these 
outstanding issues.
    Mr. Chairman, I know our offices have had extensive 
discussions about the future of New START and I understand that 
portions of your amendment and the amendment I helped to co-
sponsor have now been included in the NDAA Conference Report, 
which is good news, and I look forward to seeing what comes out 
of that and continuing our conversations as we move forward.
    And with that, I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    I will now introduce our witnesses before asking them to 
summarize their testimony. Everything will be submitted for the 
record.
    Admiral Michael Mullen served in the United States Navy for 
more than four decades, having a distinguished career by 
serving as chairman of the Joint Chiefs of Staff from 2007 to 
2011 and chief of Naval Operations from 2005 to 2007.
    Last year, he joined the Board of Directors of the Nuclear 
Threat Initiative, and since his retirement he also has taught 
national security decisionmaking and policy at Princeton's 
Woodrow Wilson School and is president of MGM Consulting.
    Rose Gottemoeller recently completed 3 years as the Deputy 
Secretary General of NATO, where she devoted significant 
attention to NATO's relations with the EU, United Nations, 
Russia, and China.
    Prior to that, she served at the State Department as the 
Under Secretary for Arms Control and International Security, 
and as the Assistant Secretary for Arms Control Verification 
and Compliance, in which position she was the chief U.S. 
negotiator of the New START Treaty.
    Pranay Vaddi is a fellow in the Nuclear Policy Program at 
the Carnegie Endowment for International Peace. Previously, 
Vaddi was a civil servant in the Office of Strategic Stability 
and Deterrence Affairs, Bureau of Arms Control, Verification, 
and Compliance at the State Department.
    He served at the Interagency New START Treaty Bilateral 
Consultative Commission, backstopping policy committee chair, 
and on the New START Treaty BCC delegation, and worked on the 
suite of U.S.-Russian arms control and deterrence issues.
    Kenneth Myers is the former director of the Defense Threat 
Reduction Agency and U.S. Strategic Command Center for 
Combating Weapons of Mass Destruction, an agency charged with 
providing the military and combatant commands with expertise 
acknowledging capabilities to prevent the use of weapons of 
mass destruction.
    Prior to that, he served on the staff of the Senate 
Committee on Foreign Relations and worked for Senator Richard 
Lugar, whom we all remember warmly as the leading Statesman on 
these issues. Mr. Myers now works as Senior Vice President for 
Defense and Security at PAE.
    I will now recognize our witnesses for 5 minutes each, 
starting with you, Admiral Mullen.

  STATEMENT OF ADMIRAL MICHAEL G. MULLEN, USN (RET.), NUCLEAR 
THREAT INITIATIVE, FORMER CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    Admiral Mullen. Thank you, Chairman, Ranking Member McCaul, 
members of the committee. Thank you for the opportunity to 
appear before you today on a vital issue that affects the lives 
of every American and, indeed, I think, the security of the 
world.
    I would like to submit for the record my full statement in 
support of extending the New START Treaty and, in addition, 
highlight for you now what I see as the key points in favor of 
extending New START.
    Chairman Engel. Without objection, so ordered.
    Admiral Mullen. Based on my firsthand knowledge of the 
treat and its successful implementation today, my belief that 
the strategic arms control agreements are an integral element 
of our overall nuclear policy and posture. I want to make six 
key points today.
    First, the New START Treaty contributes substantially to 
the U.S. national security by providing limits, verification, 
predictability, and transparency about Russian strategic 
nuclear forces.
    New START limits the U.S. and Russian strategic nuclear 
warheads and delivery systems and contains a robust 
verification and transparency set of measures including 
extensive exchanges of data, notifications regarding the number 
and status of each side's strategic offensive arms and 
facilities, and onsite inspections to confirm that data.
    As of August 2019, the U.S. and Russia have exchanged 
approximately 18,500 notifications and U.S. inspectors have 
conducted more than 150 onsite inspections in Russia, providing 
us a high confidence that Russia is complying with the treaty's 
limits and other provisions, and vice versa.
    New START also contains provisions to facilitate the use of 
national technical means for treaty monitoring. Indeed, without 
the treaty and its verification provisions, we would be flying 
blind.
    Second, it is strongly in the U.S. national interest to 
extend New START for 5 years so that the United States and 
Russia can continue to realize the mutual benefits and 
stability it provides.
    I support a straightforward extension of the treaty. 
Measures that change or add new obligations to the treaty such 
as bringing in another country like China or new categories of 
weapons such as nonstrategic nuclear weapons cannot, as a legal 
matter, be pursued through the extension. Such measures would 
require a new agreement and a new Senate advising consent 
process.
    That said, it is certainly appropriate for the United 
States to seek an understanding with Russia about how the 
treaty will apply to any new strategic systems it deploys while 
the extended treaty is in force.
    This can be done in the treaty's Bilateral Consultative 
Commission, or BCC.
    Let me now address some of the specific concerns that have 
been raised in the United States in the debate over the 
extension of New START, Russia's new systems, and bringing 
China into the negotiations.
    New START will apply to the new strategic weapons systems 
Russia is most likely to deploy during the treaty's extended 
lifetime and it provides the best means for discussing Russia's 
novel and emerging systems that could be deployed later.
    In the near term, we have very effective means to address 
the new Russian strategic systems that are most likely to be 
deployed in the next 5 years and that is to extend New START.
    Both the Sarmat heavy ICBM and the Avangard hypersonic 
vehicle deployed on a Russian ICBM will be accountable under 
the treaty, as recently confirmed by Russian Foreign Minister 
Lavrov and by the Russian commissioner of the New START 
Bilateral Consultative Commission.
    Getting that commitment in writing in the context of 
extension would be a great accomplishment for the 
administration.
    With respect to other strategic systems that are much less 
likely to be deployed during a lifetime of an extended New 
START, the treaty includes a provision stating the party can 
raise in the BCC questions about the emergence of a new kind of 
strategic offensive arms.
    If New START lapses we will lose the limits and 
verification we have on our Russian--Russia's existing 
strategic systems as well as the only available vehicle for 
subjecting limits and verification to the two new systems most 
likely to be deployed.
    The alternative to New START extension is a nuclear free 
for all--no limits, no verification, and no predictability 
regarding Russian strategic nuclear forces.
    Any additional steps or agreements the United States wants 
to pursue with Russia or other countries like China will have a 
better prospect for success if the foundation of New START 
remains in place.
    It is critical to conduct a strategic stability dialog with 
China, pursue transparency and confidence-building measures, 
and lay the groundwork for future arms control measures.
    But it would be an unconscionable mistake to sacrifice the 
benefits to national security of mutual restraints with Russia 
to the pursuit of an unlikely near-term arms control agreement 
with China.
    Regular and sustained bilateral nuclear dialog between the 
United States and China is also essential for building 
transparency and trust and reducing risk of miscalculation and 
blunder.
    Robust U.S.-Russia dialog on strategic stability and 
bilateral and multilateral crisis management mechanisms with 
Russia are essential and should be reinvigorated.
    Congress should encourage and support this. I urge you to 
support and encourage the expansion and deepening of these 
channels of communication with Russia to enhance the security 
of the American people and our allies.
    Thank you for the opportunity to testify and I look forward 
to your questions.
    [The prepared statement of Admiral Mullen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you.
    Ms. Gottemoeller.
    Am I butchering your name? If I am, please correct me.
    No? Okay.
    Ms. Gottemoeller. No, sir. Just perfect. I have been called 
a lot of things but you are pronouncing my name right.
    So thank you very much indeed.

 STATEMENT OF ROSE GOTTEMOELLER, FORMER NATO DEPUTY SECRETARY 
 GENERAL AND FORMER UNDER SECRETARY OF STATE FOR ARMS CONTROL 
               AND INTERNATIONAL SECURITY AFFAIRS

    Ms. Gottemoeller. Chairman Engel, Ranking Member McCaul, 
distinguished members of the committee, thank you for this 
opportunity to testify before you today on the importance of 
the New START Treaty as well as broader arms control issues of 
importance to NATO allies.
    Having departed the position of NATO deputy secretary 
general only in October, I am very aware of the interest and 
concerns of the allies in this strategically significant arena.
    I will give a few highlights of my testimony and ask, 
please, that the whole of it be placed on the record.
    Today, I would like to focus on two aspects of contemporary 
arms control. First, one that Admiral Mullen has already 
introduced, the importance of the New START Treaty.
    I will focus on its importance in regulating parity. That 
is, the equivalence of U.S. and Russian strategic nuclear 
forces.
    The second issue I would like to tackle is the problem of 
dual and nuclear and conventional capability in ground-launched 
intermediate range missiles, an issue that has become 
especially acute in Eurasia with the demise of the 
Intermediate-Range Nuclear Forces treaty--INF--and, thus, 
affects U.S. allies in both Europe and in Asia.
    First, on New START, I know and, as Admiral Mullen has just 
discussed, a debate has been underway as to whether to extend 
the New START treaty for 5 years from February 21 to February 
26, as is permitted by the treaty.
    A number of arguments have been advanced against this step, 
including that the treaty does not control the new nuclear 
systems that Russian President Putin has announced on several 
occasions, most prominently in his speech on March 1, 2018.
    I do not find these arguments convincing, in part because, 
in fact, New START can play a role in regulating these systems, 
as Admiral Mullen has described.
    More importantly, we need to take a bold look at the 
question of whether New START benefits U.S. national security 
and what blows to U.S. national security would accrue, should 
New START abruptly go out of force on February 5 of 2021.
    Without the treaty, let me just underscore the answer is 
clear to me. During the coming decade, the United States will 
be modernizing its nuclear forces.
    If the treaty is extended until 2026, it will continue to 
cap Russian-deployed warheads at 1,550, and delivery systems--
missiles and bombers--at 700, giving the United States a stable 
environment in which to carry out the modernization of our 
nuclear forces.
    Without the treaty, things could change drastically and 
quickly. There is no faster way for the Russians to outrun us 
than to deploy more nuclear warheads on their missiles.
    This is not a new issue. Starting in the 1970's, the 
Soviets and now the Russians have built larger and heavier 
intercontinental ballistic missiles on which they can load more 
warheads at will and they have plenty of them in storage.
    If released from the current 1,550 limit on deployed 
warheads, the Russians could readily add several hundred, by 
some account 1,000 more warheads to their ICBMs, forcing the 
United States into a difficult targeting problem at best and a 
strategic crisis at worst.
    The Russians, with their highly capable missiles might be 
tempted to try to knock out the strategic command and control 
systems of the United States.
    Stability depends on such a temptation never taking shape. 
As farfetched as it seems, that very scenario drove both sides 
in the arms reduction negotiations of the 1980's and 1990's to 
acknowledge that we must ensure parity in numbers of deployed 
warheads and delivery vehicles.
    We cannot afford to lose this parity or to cease regulating 
it. But if New START lapses, that outcome could happen fast, an 
outcome dangerous for U.S. national security.
    Therefore, I believe it is in our national security 
interest to extend the treaty to February 2026.
    Before I leave the New START Treaty, I would just like to 
mention that the NATO allies, as well as our allies in Asia, do 
support extension of the New START Treaty.
    Now, I would like to speak briefly to the dual capability 
challenge. The problem of dual nuclear and the conventional 
capability and intermediate-range systems is an issue that has 
become especially acute in Eurasia with the demise of the 
intermediate-range nuclear forces, or INF.
    It does affect allies in both Europe and Asia. NATO allies 
have been clear in voicing their concerns about it and Tokyo 
and Seoul have also begun to do so.
    To begin, the unique difficulty that emerges from dual 
capable intermediate-range missiles that are ground lodged is 
that they have either very short flight time to target, as in 
ballistic systems, or operate in a stealthy mode difficult for 
radar to detect as in cruise missiles.
    Warning time for those under attack is either very short or 
totally lacking. The missiles, thus, face decisionmakers with 
the nightmarish dilemma of a no-warning attack that could be 
either nuclear or conventional.
    This is the very dilemma that led Soviet and U.S. 
negotiators to reach the INF treaty in the period of 1987 and 
it did sustain stability by banning all intermediate-range 
ground-launched deployed by the parties.
    Now the dilemma remains but the INF treaty does not and I 
know this hearing is not about reversing the U.S. withdrawal 
from the INF.
    But I want to state clearly that I supported it, having 
personally been involved in 4 years of diplomacy to try to get 
the Russians back into compliance with the treaty.
    So I am not condoning Russian behavior but I do want to say 
that the Russians have spoken out to say, from a leadership 
aspect, both their minister of defense, Sergei Ivanov, and also 
President Putin that they see the proliferation of these kinds 
of systems across Eurasia in the hands of the Chinese, the 
Indians, the Pakistanis, the North Koreans, and then the 
Iranians as being destabilizing for them. Why they never 
attempted to resolve it at the negotiating table I do not know. 
But we saw them violating the treaty and so have withdrawn.
    So I think it will be important to get China to the table 
and I think we can--we can pursue a phased approach with them, 
with China and Russia together, pursuing, for example, early 
talks on the issues and dilemmas that these systems represent, 
then moving on to statements of restraint and, finally, moving 
in the direction of actual limitations and reductions on these 
systems.
    But I see the necessity of a phased approach to bring China 
to the table and to make it clear to them that their interests 
too will be served by constraints and restraints on these kinds 
of weapons systems.
    So with that, Mr. Chairman, thank you for your patience. I 
look forward to further discussion.
    [The prepared statement of Ms. Gottemoeller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much.
    Mr. Vaddi.

  STATEMENT OF PRANAY VADDI, FELLOW, NUCLEAR POLICY PROGRAM, 
           CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Vaddi. Thank you, Chairman Engel, Ranking Member 
McCaul, and esteemed members of the Committee on Foreign 
Affairs.
    I have submitted detailed written testimony for the record 
and will summarize my main points now.
    I hope to leave you with two main conclusions today. First, 
New START expiration exacerbates security threats facing the 
United States.
    Chairman Engel. Could you pull your mic a little closer? 
Yes.
    Mr. Vaddi. It risks an increase in Russia's strategic 
nuclear forces and losing insights into Russia's nuclear 
operations. Further, treaty expiration will not address Stated 
U.S. goals, like limiting Russia's tactical nuclear weapons 
stockpile or bringing China into an arms control process. These 
problems will remain unresolved after expiration of New START.
    Second, extending New START is valuable to U.S. security. 
Extension continues limits on Russia's strategic nuclear 
arsenal, which is modernizing as we speak. It also enhances 
U.S. allied relations. Extension will not create any new 
security problems for the United States.
    New START provides information on Russia's nuclear weapons 
for the U.S. intelligence community and military that is 
unlikely to be otherwise obtained. This information comes from 
data exchanges, notifications, and onsite inspections, which 
all show that Russia is complying with the treaty today.
    Under New START, the United States and Russia exchange a 
full accounting of their strategic nuclear forces an facilities 
through major data exchanges twice per year.
    They also exchange notifications, by latest count by the 
State Department over 19,000 to date. Any time a missile moves 
from one base to another, a new missile is produced or flight 
tested or additional warheads are deployed on a system within 
days of that event occurring.
    Of course, the U.S. Government simply does not take 
Russia's word of these data exchanges. Onsite inspections 
provide short notice spot checks with just over 1 day of 
advanced notice.
    Russia is left with some uncertainty regarding what nuclear 
base may be inspected when an inspection is announced, which 
helps promote Russian compliance.
    These measures help U.S. defense planners design the 
appropriate sized nuclear posture to deter Russia, which is by 
far the largest nuclear power of any potential U.S. adversary.
    Verification also deters future compliance challenges and 
provides information not based on sensitive U.S. intelligence 
sources. This is useful information to have when engaging 
Russian diplomats on nuclear weapons issues.
    Russia's novel or exotic nuclear weapons have been in the 
news recently. I cover these systems in detail in my written 
testimony and welcome any additional questions you may have on 
them.
    I want to make clear that New START is actually a good 
story in this respect. Only two new long-range nuclear 
systems--the Sarmat intercontinental ballistic missile, and the 
Avangard hypersonic glide vehicle--will likely be deployed 
before the treaty expires.
    Russian officials have agreed to bring both weapons into 
New START accountability, which is a credit to the 
administration's experts who pushed for their inclusion in the 
treaty.
    Already Russia has shown the Avangard hypersonic glide 
vehicle to U.S. inspectors. Thanks to New START, U.S. personnel 
have laid eyes on the very first known deployed strategic range 
hypersonic glide vehicle Russia has ever fielded.
    They will do the same with the Sarmat ICBM once it is 
deployed. The bottom line is the new Russian weapons that 
matter most to U.S. security between now and 2026--the furthest 
expiration date should New START be extended for 5 years--will 
be constrained.
    Failing to extend New START will undo the limits achieved 
by the Trump Administration on these two new systems.
    Yes, there are yet to be deployed nuclear weapons, which do 
not neatly fit into the treaty's definitions. However, it makes 
little sense to release constraints on the bulk of Russia's 
strategic nuclear force to try and limit a few developmental 
systems which are unlikely to be relevant to the United States 
before New START ever expires.
    Additionally, the Trump Administration has argued that 
China should be brought into the arms control process. This is 
a worthy long-term goal.
    According to the Defense Intelligence Agency, China's 
warhead stockpile is in the low couple of hundreds, compared to 
the thousands of warheads that the U.S. and Russia maintain.
    Instead of attempting to limit China with the New START 
treaty, U.S. diplomats should prioritize keeping China from 
building up its currently small nuclear arsenal to challenge 
the United States numerically.
    This is not what New START was designed to do. Our 
differing goals with respect to China and Russia and their 
respective nuclear forces can be pursued more effectively after 
New START is extended.
    To conclude, let me state unambiguously that New START 
extension is in U.S. interests. Letting New START expire will 
undermine U.S. security. Extending New START will not create 
any new security problems.
    The treaty will continue to support U.S. national security 
goals, constrain Russia's nuclear arsenal and provide a stable 
basis for the planned U.S. nuclear modernization, which will 
shift from development to producing new U.S. nuclear systems 
after the treaty expires.
    In addition, expiration would harm U.S. relations with its 
allies.
    For members here today, Congress has an important role to 
play in arms control policy. I encourage Congress to look 
seriously at the U.S. government's arms control work force. 
Promoting diplomacy in this area and hiring and retaining the 
next generation of arms control experts are important missions 
the committee can embark on.
    The president can extend New START with the stroke of a 
pen. I hope that today's hearing will move the House and Senate 
to take up bipartisan legislation and further messaging to 
signal Congress's strong interest in New START extension.
    Thank you for the opportunity to testify and I look forward 
to answering any questions you may have.
    [The prepared statement of Mr. Vaddi follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much.
    Mr. Myers.

  STATEMENT OF KENNETH MYERS, FORMER DIRECTOR OF THE DEFENSE 
 THREAT REDUCTION AGENCY AND U.S. STRATEGIC COMMAND CENTER FOR 
             COMBATING WEAPONS OF MASS DESTRUCTION

    Mr. Myers. Mr. Chairman, Ranking Member McCaul, and members 
of the committee, it is an honor to testify on the future of 
the New START treaty. I would like to summarize my written 
statement and have it submitted for the record.
    The views I will express here today are my own and not 
necessarily those of my company, PAE. I believe the New START 
treaty should be extended before it expires in 2021.
    I reached this conclusion for two reasons. First, while the 
New START treaty is not perfect, it limits Russia's ability to 
deploy nuclear weapons and as long as Russia remains in 
compliance, it is in U.S. national interest to prevent Russian 
expansion of its nuclear arsenal.
    Second, the 5-year extension can and should be used to 
address recent technological developments and it will include 
China in expanded negotiations and commitments.
    The Russians are testing nuclear delivery systems not 
captured by the New START treaty and the Chinese are making 
significant investments to expand and modernize their nuclear 
weapons capabilities.
    As a result, I believe it is necessary to extend in order 
to expand.
    On a personal note, I would like to thank the chairman and 
ranking member for naming the bill after Senator Richard Lugar 
and Representative Ellen Tauscher. I had the privilege to serve 
on Senator Lugar's staff for 15 years and I am thankful to have 
worked for a true American Statesman who made the United States 
more secure and the world a safer place.
    Mr. Chairman, treaties will never be perfect and they are 
not panaceas. By their very nature they are compromises between 
governments.
    As a result, they alone cannot ensure American security. 
During my time in the Senate, I participated in the 
consideration of many treaties. The concern heard most often 
was a level of certainty to detect cheating.
    President Reagan's famous dictum of trust but verify is 
heard regularly, and rightfully so. In large part, the Defense 
Threat Reduction Agency, or DTRA, is the entity charged with 
responding to President Reagan's challenge.
    DTRA conducts the inspections in Russia and escorts Russian 
inspectors in the U.S. The treaty and technical weapons experts 
at DTRA are the very best in the world. They train and exercise 
regularly to maximize the verification opportunities under New 
START and other treaties.
    After leaving the Senate, I had the pleasure to serve as 
the director of DTRA for 7 years and testified in support of 
the New START treaty in 2010.
    The agency supported the New START treaty negotiations, 
providing analytical, technical, and linguistic support to then 
Under Secretary Gottemoeller and her team of negotiators to 
then Chairman Mullen and the Department of Defense and the U.S. 
interagency.
    Of the 56 members of Dr. Gottemoeller's negotiating team in 
Geneva, 18 were DTRA personnel. It provided decades of 
experience and expertise to the delegation and played a 
critical role in the development of the treaty.
    DTRA was confident in and ready to make full use of the 
treaty provisions because they helped develop them.
    Mr. Chairman, I believe a rigorous verification regime is 
crucial to a treaty's success. I have no doubt that Russia will 
seek to ensure weapons, such as the boost glide missile system, 
remain outside the treaty while also seeking to make it harder 
for the U.S. to verify compliance.
    I will defer to my colleagues as to the best negotiating 
strategy. But the technical skills of DTRA will be required to 
successfully capture the necessary delivery systems and avert 
loopholes that could be utilized by Russia and China.
    Engaging China will also complicate negotiations. But I 
believe their inclusion is necessary. Beijing's nuclear 
modernization and expansion cannot be ignored.
    The U.S. must not allow Moscow and Beijing to negotiate us 
into a corner or leverage gaps in the treaty's verification 
regime.
    U.S. national security will benefit from an expanded treaty 
that includes newly developed delivery systems, a growing 
nuclear-capable China, and a verification regime that ensures 
our ability to determine compliance.
    Reasonable people can disagree on what compromises need to 
be struck to achieve an agreement. But I believe a treaty that 
limits the threats to the U.S. to be inherently in our 
interests.
    Mr. Chairman, I fully support the ongoing nuclear 
modernization process here in the United States. But we must 
also understand that Russia and China are doing the same.
    Our deterrence and defense strategies are supported not 
only by aggressive modernization and continued investment in 
missile defense but also by reducing the number of threats 
facing the United States.
    It is time that the U.S. get to work to extend New START in 
order to expand it.
    I want to thank the committee for the invitation to appear 
today. I applaud your leadership and I stand ready to support 
the committee in the future.
    Thank you.
    [The prepared statement of Mr. Myers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Well, thank you all very much.
    I will now recognize members for 5 minutes each. All time 
yielded is for purposes of questioning our witnesses and I will 
start by recognizing myself.
    Let me start with you, Admiral. You held the most senior 
position in our armed forces and dealt with countless threats 
to our Nation's security throughout your career.
    On the topic of arms control, we often hear people suggest 
that negotiating with an adversary is somehow a sign of 
weakness.
    Can you address this question? Do you think arms control 
negotiations can help strengthen our position vis-a-vis 
adversaries like Vladimir Putin's Russia?
    Admiral Mullen. Chairman, certainly the evidence in the 
last decade or two indicates that the relationship with--our 
relationship with Russia is a very difficult relationship.
    I do not think that is going to change. One administration 
after another has tried to establish it and it is very tough.
    What is striking to me is that in this regime, though, it 
has actually been pretty strong over a long period of time. 
Sometimes it is difficult to really understand why that happens 
at a very high level.
    I think actually both sides, going back to the beginning of 
SALT, do not want to destroy the world and that continues.
    So I actually think we are in a position of strength with 
respect to these capabilities. We both possess--still possess 
the weapons which could, in great part, destroy the world and I 
think there is underlying, beneath all this, the desire to make 
sure that that never happens.
    We have--we have had strong negotiations with them before. 
They are difficult. They call for compromises, but not so far, 
at least the one I negotiated, not so much that we would 
compromise our security or the security and stability of the 
world with respect to these weapons.
    The worry that I have is outside those negotiations or 
outside these requirements we have no way of understanding what 
they are doing and we sort of opened the door to a new arms 
race.
    In addition to, and it has been brought up several times, 
how do we get China into this, when I negotiated this in 2010 
along with Rose, China was obvious at that time and the 
question was at what point in time do we bring them in. We did 
not try to answer it back then.
    At some point, we need to do that in a very structured way. 
The fact that we've been able to control these weapons in this 
way indicates we can in the future, and as China continues to 
emerge, be a player on the global stage, there is an 
opportunity to do that.
    But that is long, detailed. It takes expertise and there is 
no way that we could bring them in in the short period of time 
that we have right now before this expires.
    Chairman Engel. Thank you, Admiral.
    Ms. Gottemoeller, you recently returned from Brussels after 
years of working directly with our closest allies. I would like 
to explore the importance our allies place on arms control.
    New START is, of course, a bilateral treaty with Russia. 
But does it have an impact on NATO security, more broadly?
    Ms. Gottemoeller. Yes, Mr. Chairman, it does because it 
provides for predictability and mutual stability with the 
Russians, and right at the heart of NATO defense ultimately are 
the central strategic systems of the United States of America.
    So it is the ultimate guarantee of the security of the 
alliance. And so to the degree to which there is stable 
predictability to which we know what the Russians are doing, 
and vice versa, I want to stress that this is mutual.
    These are reciprocal arrangements. This kind of 
predictability is seen of great benefit by the allies and, as I 
mentioned in my remarks, they fully support the extension of 
the New START treaty.
    Chairman Engel. Thank you.
    Mr. Vaddi, let me ask you this question about China because 
members of our committee are concerned about China, and we 
understand the Trump Administration is anxious to include China 
in future arms control talks.
    Can you go into more detail on the state of China's nuclear 
arsenal? How concerned should we be about China's nuclear 
weapons at this stage as compared to Russia's?
    Mr. Vaddi. Thank you for your question, Chairman Engel.
    So China has a nearly tenfold smaller nuclear arsenal than 
the United States and Russia.
    Chairman Engel. Can you pull your microphone a little 
closer please? Yes.
    Mr. Vaddi. China has a nearly tenfold smaller nuclear 
arsenal than the United States and Russia. Estimates from the 
U.S. Government and nongovernment organizations put the Chinese 
stockpile number between 200 and 300.
    China has a declared no first use policy, meaning they 
would not--they have stated a commitment not to use nuclear 
weapons first, and they are satisfied with the purely 
retaliatory nuclear posture.
    China does not have any alert nuclear weapons. It keeps 
warheads de-mated from its ICBMs, though there is a debate in 
Beijing whether that should change based on actions by the 
United States as the relationship grows more competitive.
    In contrast to China, Russia is a nuclear peer of the 
United States. They, roughly, have the same numbers and types 
of nuclear weapons as the United States, especially in their 
strategic nuclear force, a greater overall number of 
nonstrategic nuclear weapons but a lesser stockpile of 
strategic nuclear weapons.
    Beyond the numbers, the U.S.-Russian nuclear weapons 
relationship is a relatively stable one. Each country has the 
means to annihilate the other through a survivable retaliatory 
strike.
    And the size of Russia's arsenal it is interested in 
qualitative improvements and its offensive capabilities, its 
commitment to funding nuclear weapons development even while 
its economy is in a weak state. It is not a problem that is 
going away. The United States should and will continue to treat 
Russia as the preeminent driver of U.S. nuclear policy.
    I think we should ask ourselves what could drive China to 
perceive a need to increase its nuclear arsenal and that should 
be the driving element of U.S. arms control policy toward 
China.
    If this is a core tenet of the U.S. arms control approach 
to China, that is to say, not to spook Beijing and raising to 
parity, abandoning all first-use, alerting its ICBMs, then 
signalling that the United States and Russia are going to 
maintain an arms control relationship is especially important 
to engaging China in arms control.
    We should not allow New START to expire and potentially 
invite China to raise to parity with the United States because 
they have the capability to do so and they have the financial 
means to do so because that will make China a much larger 
challenge down the road.
    Chairman Engel. Thank you. My time has expired so I will 
call on Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    First, to Admiral Mullen, thank you for your service to our 
Nation over the many years. We all have a great deal of respect 
for you, sir.
    And I just want to ask you first, there are many who say, 
you know, you cannot trust the Russians and I do not. But our 
State Department did say that they are in compliance with New 
START.
    What would be the negative consequences of pulling out of 
the New START agreement?
    Admiral Mullen. If I were to go back to the negotiations, 
and Ms. Gottemoeller here has spent most of her life in these 
kind of negotiations, this was really my first.
    But the difficulty of the negotiations were the technical 
details--you know, how many inspections, what were the national 
technical means, we need you to leave a certain site that you 
have been able to inspect alone in the future.
    They were really hard-nosed negotiations. That said, once 
we reached agreement on the details, they have been very, 
very--seemingly, very, very compliant.
    Certainly, all the evidence seems to speak to that. We lose 
all that, quite frankly. We lose the opportunity to, basically, 
you know, do the verify side of trust but verify and if we 
cannot verify it there's no way we can know, and I think in the 
opening--some of the opening statements from--in Rose's opening 
statement what Russia is doing in terms of developing new 
capability, you know, larger warheads, larger missiles, what 
they could actually put to use beyond these limits very 
quickly--it is pretty scary.
    And then we are in a position where are we back in the arms 
race that we thought we sort of up through, you know, the end 
of the cold war we sort of left behind and we are not--we are 
much closer to that than I thought we ever would be again and 
that is why this treaty in particular is so critical. We just--
we are in the dark, basically, if we walk away.
    Mr. McCaul. And that was exactly the point I was going to 
make. It seems to me we do get intelligence out of this and 
without this we would go dark and, potentially, an arms race 
would start.
    Admiral Mullen. We do get it and everybody knows it. They 
also get intelligence out of this. That's part of the 
negotiations of how much of that are you going to give away. 
But we, clearly--we, clearly, had visibility in these systems 
into what they are doing.
    Mr. McCaul. So the other arguments we hear is, you know, as 
you talked about China, I agree that we need to look at China 
and but the fact is, as you point out, Admiral, they are not 
part of this agreement and they are not a signatory to this 
agreement, although I do think we need to look at China and 
these other expansive weapons that are not part of the 
agreement but more the exotic, the hypersonic weapons, for 
instance.
    Secretary Gottemoeller and, perhaps, to the three of you, 
how can we accommodate those critics? In other words, would it 
make some sense to have as maybe a precondition to an extension 
of New START to have conversations and a strategic dialog with 
Russia and China on these new weapons and also on China's 
nuclear capability?
    Ms. Gottemoeller. The biggest issue now, I think, sir, is 
to look for ways to incentivize China to come to the 
negotiating table and to my mind that kind of strategic 
stability discussion on trying to exercise some kind of 
leverage out of the extension of New START on China they will 
simply not be levered in that way, in my mind.
    And so I think it is more important to look for what will 
incentivize them to come to the negotiating table and, to my 
mind, they are in a position where they could--they could be 
essentially convinced that they are facing a major 
proliferation of particularly intermediate-range missile 
systems in Eurasia and they are going to have to, if they want 
to address that, what will be a severe threat to Beijing over 
time.
    They are going to have to come to the negotiating table. So 
it is a bit of a long game with China and I think there is a 
role for a strategic stability type discussion with them. But I 
do not think they will be levered by extension of New START.
    I think what they will be levered at is that they are going 
to be scared at the notion that they will facing more missiles 
pointed at them.
    Not only they are worried about the United States, of 
course, and I do not know what the plans are by the United 
States to deploy intermediate-range systems in Asia 
particularly but Russia, their nemesis in South Asia, India.
    These are countries who have very capable missiles and that 
is what is going to bring them to the table, thinking about 
what the threats to them are.
    Mr. McCaul. And Mr. Vaddi and Mr. Myers?
    Mr. Vaddi. I will be brief.
    I think there are actually some things the administration 
has done that it can take credit for that have not been tied to 
the New START extension question.
    So, you know, I believe the United States has approached 
China about a strategic dialog in this administration. The 
United States has engaged in the permanent five strategic 
stability process. That's the five permanent nuclear powers of 
the U.N.--U.K., France, United States, Russia, and China.
    So there have been--there has been some importance placed 
on discussing multilateral strategic stability in that way.
    Now, as far as making it a precondition to extension, I 
find it hard to believe that Russia would refuse to extend the 
treaty if it is based on needing to engage China in some kind 
of diplomatic dialog. So I think it is completely appropriate.
    If that is something that the administration can take 
credit for and then extend the New START treaty as well, that 
is, to me, an appropriate policy decision.
    Mr. McCaul. I think that is a great idea.
    Mr. Myers.
    Mr. Myers. Let me be very clear. I am not suggesting that 
engaging the Chinese is a precondition to extending New START. 
In fact, just the opposite.
    I think we need to extend and use that opportunity to 
engage not only on the new delivery systems but, potentially, 
on China. Whether or not they become a member of the New START 
treaty or its extension or what have you is almost immaterial.
    The engagement in the negotiations, whether that comes out 
as part of a trilateral or a separate bilateral, to me, it 
makes no difference.
    But extension has to happen for us to be in a position to 
accomplish those additional goals. That is why I really believe 
we have to extend first before we really get into a serious 
discussion----
    Mr. McCaul. And I think this president he likes bilateral 
talks, not multilateral, and that would fall in line with what 
you are saying.
    Mr. Myers. Correct.
    Mr. McCaul. This would be a separate--and he is having 
separate negotiations with President Xi as we talk, this week 
anyway. Yes.
    Mr. Myers. Certainly. Yes, sir.
    Mr. McCaul. Okay. I yield whatever time I have left, which 
is none.
    Chairman Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to thank our witnesses for being here.
    About 4 months ago in the subcommittee of this committee 
dealing with Europe and Eurasia, we did have a similar hearing 
on whether to, you know, extend START or start over, and I 
think it is important to note that the witnesses we had at that 
hearing underscored absolutely everything you are saying here 
today.
    The former State and former defence officials--you all know 
them--people like Tom Countryman and Madelyn Creed on and folks 
like Brian McKeon.
    So that much we know. But they mentioned, as you mentioned, 
the issue that Russia has not cheated on this. They have been 
in compliance.
    And I would like to ask you all why do you think Russia has 
done this with this treaty, which it did not do with INF and 
other treaties. What is in it for them that they have not 
violated this treaty?
    Admiral Mullen. I do not have a better answer than the one 
I already gave. They have been--they have negotiated these 
treaties for decades. They have by and large been very 
compliant.
    I am, obviously, very familiar with the details of this, 
which they have, as far as I can tell, complied with, and they 
have committed, in effect listening to some of their public 
statements they have committed that they had agreed to continue 
it.
    It is hard, very difficult for me to understand the Russian 
mind in that regard, why they are that way and then why they 
were cheating on the other ones. But they have not--as best we 
can tell, they have not cheated on this and I think we have to 
assume, at least based on what we know, that they are not, even 
though it is always possible. But they have been--if I 
regressively look at this over decades they have, basically, 
complied.
    Mr. Keating. Ms. Gottemoeller.
    Ms. Gottemoeller. So the Russians have an enormous regard 
for our strategic nuclear arsenal. They see it as a potent 
force, one that is targeted at them, and that at the heart of 
it is the same reason why we engage in these negotiated 
strategic arms limitations and reductions in order to ensure 
that we keep under control that most significant threat of 
weapons of mass destruction attack.
    So I think that is right, front, and center in what 
motivates the Russians to engage in these kinds of treaties and 
to continue to implement them.
    But, furthermore, there are some really bread and butter 
issues. We have talked about the notification regime providing 
us a real-time look at the Russian nuclear arsenal.
    These notifications provide them a real-time look at our 
strategic nuclear arsenals. So they know when our submarines 
are getting ready to deploy.
    They know when our ICBMs are getting ready to go into 
maintenance. This kind of mutual predictability has been 
mutually stabilizing. And so I think they have an important 
reason and rationale in that realm as well.
    Mr. Keating. Could I followup with one of your other 
statements that you said in your opening remarks? You mentioned 
our NATO allies.
    After the INF treaty moved away from that, which NATO did 
agree with, although they agreed--I could tell you that there 
were great concerns and disappointments with our allies that we 
did not consult with them during that process and bring them in 
the loop more than we did, how important--hopefully, as we 
begin these discussions, how important is it to bring those 
allies of ours into the loop and make sure they know what is 
going on from our perspective.
    Ms. Gottemoeller. I want to begin my remarks, sir, by 
giving some good credit to this current administration who did 
provide a significant amount of information including 
intelligence information that enabled our allies to determine 
that Russia independently that the Russians indeed are in 
violation of the INF treaty with this new SSC-8 missile.
    So there was a good deal of consultation. It took some time 
and there were some frustrations just as you have said. But in 
the end of the day, a good deal of information was provided and 
the allies did independently determine the violation.
    That said, going forward, New START, obviously, is a 
bilateral treaty between the Russian federation and the United 
States.
    But, as I mentioned a few moments ago, allies see it as 
part and parcel of their deterrence and defense agenda as well 
and so they will be very keen to have tight consultations both 
on the extension of the treaty and what goes forward as well in 
terms of further reduction negotiations.
    Mr. Keating. Any other comment?
    Mr. Vaddi. Sure, I will agree with the previous two 
witnesses' statements.
    The one thing I will add is New START has a effective 
operational verification regime, which sets it apart from the 
INF treaty.
    The INF treaty's verification regime expired in 2001. New 
START, meanwhile, inspectors from Mr. Myers' former 
organization have the opportunity to crawl over Russian nuclear 
bases 18 times a year.
    They are confirming data that Russia provides to the United 
States through the data exchanges and notifications, and making 
sure that the warhead counts, the locations of missiles on a 
system-by-system basis are where the Russians are saying they 
are.
    As a result, I think Russia is deterred from cheating on 
the New START treaty. The broader point is that I think, as Ms. 
Gottemoeller said, Russia would be scared to death of a 
strategic arms race with the United States. They cannot keep 
pace financially or technologically with the United States on 
these types of technologies.
    Mr. Keating. I agree.
    Chairman Engel. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
to the panel for your expertise and your leadership for 
decades.
    You know, the 18 short-term--short notice onsite 
inspections each year, maybe you can give us a little further 
insight what the approximate causes is when we decide, on a 
short-term basis we are going to go and we are going to look at 
this, what often triggers that, how sure are we and what's the 
degree of confidence that somehow we are seeing what we think 
we are seeing--I mean, are very adept at hiding and concealing.
    Let me ask you too, if the U.S. were to push China's 
inclusion, how serious would Russia's demands be that France, 
with its 300 nuclear weapons and the U.K. with 200 or so 
nuclear warheads be included as well?
    Would that become like a make or break and the next thing 
you know the whole thing implodes because of that expansion? 
The mega tonnage--when warheads are being replaced is that part 
of this as well?
    Is it just not the number of MIRV nuclear weapons going on 
ICBM or is it how big are they, how lethal they are?
    And then when it comes to modernization, how does extending 
or not extending New START affect each nation's modernization 
plans?
    I know from everything I have read and have been following 
and you have kind of said it today, you know, they would be 
unleashed to do even more. So would we be in like fashion.
    But, to me, modernization means more lethal, more accurate, 
maybe safer and that is a good component, but more lethal.
    I mean, again, getting back to the mega tonnage, if we are 
looking at something that just manages the old MAD theory or, 
you know, and what has ever happened to that. We know the 
mutual assured security concept during Carter and into Reagan 
became very much, you know, a better talking point than just 
obliterate both sides.
    And where are we on that? How does that factor into all of 
this? But, again, those first questions, if you could.
    Admiral Mullen.
    Admiral Mullen. Actually, what I would like to do is just 
get at the modernization issue because that became such a big 
part of the last negotiation, although as far as I know, 
basically it was were we going to be able to carve out enough 
money to commit to the modernization of our systems, which was 
badly in need at the time, and it was about more capability. It 
was about technically--it was also about upgrading them and 
being able to test them, obviously, in a nonexplosive way to 
make sure that actually the systems could respond.
    And there was an awful lot of that which was in play, a lot 
of money that was set aside in the budget to be able to do 
that.
    I know that that has been in great part invested but I 
could not tell you today that we are where we want to be. I 
know we are very committed to that, and that was part of what, 
in listening to General Mattis or to Secretary Mattis's 
testimony, I know he was committed to that as well.
    Mr. Smith. Mr. Myers.
    Mr. Myers. Yes, sir. With regard to the inspections, the 
first part of your question, I am going to be a little bit 
careful here in terms of how we pick targets because that is 
done by an interagency process.
    But let me make two points. First and foremost, everything 
is done very, very deliberately. Everything is done in a very 
informed way, whether that is being informed by national 
technical means or whether it is being done by the very data 
exchanges and notifications that we have discussed.
    The data exchanges and the notification give us kind of a 
basis of evidence that we try to prove or disprove. But the 
goal, obviously, is whatever you do under these inspections you 
are going to try to accomplish multiple things all at the same 
time, whether it be verifying a data exchange, a notification, 
an inspection--whatever the case might be.
    And the way the treaty provisions are written up the team 
goes in and does not have to announce where they want to go in 
Russia and to a considerable amount of time has gone by, and we 
are able to watch what happens as a result of that and we are 
able to adjust and we are able to make an awful lot of 
decisions on the fly, if you will.
    And the one thing I want to assure you is none of that is 
haphazard. None of it. The teams train, the teams exercise, and 
the teams deploy in a very, very militaristic way, if you will.
    They train like a military unit to carry out these events. 
And as a result, I have no doubt whatsoever that the quality of 
the information that we are getting is head and shoulders above 
what others are doing.
    But if I could take one second, going back to one of the 
earlier questions, the Russians do not have the national 
technical means that we do.
    They are relying on these inspections even more than we 
are. But I will tell you, even with that in mind, we are 
bringing back, because of the quality, because of the 
investment, because of the training exercise, better 
information to our decisionmakers.
    Chairman Engel. Thank you.
    Mr. Bera.
    Mr. Smith. If at some point, Mr. Chairman, if they could 
speak whether or not the U.K. and France, is that something 
Russia would require as part of an expansion of China.
    Chairman Engel. Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    I agree with and associate myself with a lot of the 
comments that have already been discussed and the importance of 
and extension of New START.
    But if we look backward, when the START treaty expired in 
2009 without a replacement there was a close to 1 year gap 
between the expiration of START and the coming into force of 
New START.
    Maybe, Ms. Gottemoeller, what did we lose in that gap and 
what lessons can we learn from looking back at that 1-year gap?
    Ms. Gottemoeller. Thank you, sir. That is a good question. 
We were concerned about it at the time.
    We were engaged in a very active negotiation. We were 
pushing hard, both Moscow and Washington, with clear political 
guidance to get this treaty done.
    And so there was a real incentive during that hiatus year 
between December 2009 and when New START entered into force in 
February 2011. There was a real incentive not to undermine the 
principles that were inherent in START.
    So we did take care to ensure that, for example, one of us 
did not rush to deploy a lot of new warheads which is what I 
mentioned in my testimony I am concerned about.
    The question in my mind comes not when we are engaged in 
active negotiations when we are pressing forward. There is 
clear political guidance. We know both sides want to get this 
treaty done.
    It is if, you know, there is nothing replacing it and no 
process replacing it, and then do we descent into an arms race. 
So that is the real worry in that case.
    If I may address very quickly the question about U.K. and 
France, in fact we have always been assiduous at the 
negotiating table not to allow the independent nuclear arsenals 
of the U.K. and France to fall onto the table and that has been 
a clear and really unrelenting position of the United States at 
the negotiating table now for several decades.
    And so we would want to keep them off the table. I do have 
some concern, frankly, of China's in the mix, that all of a 
sudden, Okay, why do not we bring U.K. and France into the mix 
as well. So that is a concern but it has not been our policy up 
to this point.
    Mr. Bera. So, you know, going back to my original question, 
circumstances have changed between 2009 and 2010 and if we fast 
forward to U.S.-Russian relations in 2020 timeframe, would you 
say Russia still has that same posture where if New START were 
to expire that there would be an urgency of continuing 
negotiation to come up with a new agreement?
    Or is Russia looking at this scenario differently today?
    Ms. Gottemoeller. From what I hear from Mr. Putin, sir, I 
would not be confident of that. I would think more that they 
would be enthusiastic about continuing to develop a pace new 
nuclear capability unconstrained by any treaty.
    Mr. Bera. So they would be--again, circumstances have 
changed. Russia would be in favor of seeing an expiration here?
    Ms. Gottemoeller. At this moment, they too are concerned 
about the U.S. arsenal modernization. So I think there is an 
interest in Moscow in New START extended. We hear that time and 
again from the Russians.
    They see an interest--a security interest--in the treaty. 
But should the treaty go away, my only point is that, as my 
colleague Mr. Vaddi said, they will put the necessary resources 
into doing what they think they need to do to maintain a 
nuclear edge and even perhaps some nuclear--beyond the nuclear 
edge, some nuclear superiority.
    Mr. Bera. Right, and the danger there is if we see that 
they are advancing that prompts us to then redeploy. So there 
is a necessary urgency right now to have that negotiation start 
moving forward, et cetera.
    If--I am an optimist and to work in this body at this 
particular moment in time you have to be an optimist and think 
about what that future looks like.
    Obviously, it is not in China's interest to see a nuclear 
arms race taking place between the United States and Russia 
intermediary strategic assets.
    When I think about India, and we do not have an accurate 
number of what their capabilities are but what I can find on 
the internet is anywhere from 130 to 140 nuclear weapons. 
Whether that's accurate or not, I imagine China has concerns 
about India's expansion. I know, certainly, India and Pakistan 
have their intentions there.
    What are the possibilities of, you know, getting--making 
sure there's not a nuclear arms race between India and 
Pakistan? And maybe, Mr. Vaddi, you could touch on that 
briefly.
    Mr. Vaddi. Sure, and I won't be--I won't pretend to be an 
expert on South Asia nuclear affairs. But I think to relate it 
back to the U.S.-China arms control policy debate, one of the 
issues that we will face in approaching China once you get past 
this argument that China has so many fewer nuclear weapons is 
going to be China taking a look at its own regional security 
situation and that will necessary drag in China's worries about 
India, China's concerns about our allies in East Asia.
    And what I am trying to convey is that this is--this 
becomes a very, very complicated negotiation very quickly as 
opposed to this question of extension between the U.S. and 
Russia for a bilateral agreement which, again, has the two 
largest nuclear powers. It just makes sense to continue to have 
that process in place.
    Chairman Engel. Thank you very much.
    Mr. Mast.
    Mr. Mast. Thank you, Chairman. I appreciate it.
    As I am sitting here trying to think about and analyze 
what's going on with New START I want to ask a question a 
little bit outside of that, that however feels they are most 
apt, most educated, can offer the most profound statements on--
whoever wants to answer this answer it.
    As we sit here and think about China and Russia and we 
think about our history of nuclear policy, whether it be 
mutually assured destruction or letters of escalation or 
selective ambiguity, can you explain to us right now what is 
the--what is the posture of Russia and of China today?
    And, obviously, this does not exist in a vacuum where we 
are only talking about unconventional weapons. They have 
conventional weapons as well and, you know, totally different 
world now, what we deal with China compared to the cold war 
with Russia and the engagement in the global economy and what 
is going on out there with global militaries or regional 
militaries.
    Can you talk a little bit about that? So as we think about 
New START we think a little bit about how did they think of 
nuclear weapons, defensively, offensively, not just as a first 
use weapon or not, but more broadly?
    Admiral Mullen. it is a great question. I mean, I have come 
to believe that in this century the most important 
relationship--bilateral relationship is going to be between the 
U.S. and China and that is principally driven by the economy 
and everything that sort of follows to that.
    What I have been most--one of my biggest concerns with our 
relationship with Russia is it has gotten so bad that it has 
actually pushed Russia and China together in a way that I could 
not normally or have ever imagined.
    They have got, you know, I think it is 1,100 kilometers 
that they have been fighting across for a long time. They are 
not natural friends.
    And yet, in this environment that I find ourselves with--
struggling with our relationship with China for lots of reasons 
and I do not--I am not critical of that. They are tough--they 
are going to be a tough country to engage and move forward 
constructively.
    But I see Russia more and more aligned with China. Just the 
other day there was a--I think they signed a contract for, you 
know, an energy bill that was unimaginable just a few years ago 
as a relationship.
    I do not know how far that's going to go. That, to me, 
speaks to the vital requirement to figure out to work with 
Russia in a way that does not cement that relationship for the 
better part of the century, which I think would be bad for us 
and bad for the world.
    Ms. Gottemoeller. If I may, I will just add that Admiral 
Mullen is quite right. There has been a long history of 
conflict between Russia and China. We do not see it at the 
moment.
    They are in a significant, I would say, more than a 
marriage of convenience at the moment and it is related to 
economic cooperation also because Russia is under a lot of 
sanctions and so it deals with China instead of with Europe and 
the United States and the rest of the world. So there are a lot 
of reasons for them to be close together now.
    My view, though, of the intermediate-range nuclear weapon, 
the 9M729 that the Russians have now built and deployed, is 
that it had an aspect to it of being a response to the 
deployment of these systems in Asia.
    And so it is if, although the Russians will never say this 
outright--they will never admit it--but they have talked about 
the proliferation of these systems across Eurasia beginning 
with China as being a reason why they themselves need these 
missiles.
    So there is that aspect, I think that we need to keep in 
the back of our minds even as we watch a strong marriage at the 
present moment.
    Mr. Vaddi. I will just add one fact to that point. When 
Russia first started modernizing its cold war era short-range 
ballistic missile systems with the new Iskander system it 
deployed in the mid-2000's the first areas of deployment were 
actually in East Asia.
    It was not that long ago in that 2005 to 2007 timeframe 
that a former Russian defense minister complained publicly 
about there being more Chinese-speaking citizens in Siberia in 
the east of Russia than there were Russian-speaking citizens. 
So they are very aware of the threat that China posed as its 
defense military capabilities were growing over time.
    So for now the relationship to be warming, to me, is both 
good for them and international bodies because they are 
presenting a front against the United States in playing 
spoiler, more often than not, but also complicates U.S. arms 
control policy and U.S. arms control thinking when it applies 
to East Asia.
    Mr. Myers. Not to be overly dramatic, but both want them--
both want to end the American century. They want a multi-polar 
world. They want their own spheres of influence and they want 
to make sure they keep the United States out.
    To me, I know it is rather brusque to say it that way, but 
at the end of the day I think that's the basis.
    Mr. Mast. Thank you all for your analysis.
    I yield back, Mr. Chairman.
    Chairman Engel. Thank you very--thank you very much.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    This is really directed to any of you who feel that you are 
able to help me out and I am going to ask you a few different 
questions.
    I am very, very concerned about what appears to be an 
implicit coordination or approval of a new arms race. On 
December 22d of 2016, President Trump tweeted that the United 
States--this is a quote--quote, ``United States must greatly 
strengthen and expand its nuclear capability until such time as 
the world comes to its senses regarding nukes,'' end quote.
    On that very same day during a defense ministry board 
meeting Vladimir Putin said that, quote, ``There is a need to 
strengthen Russia's strategic nuclear forces and develop 
missiles capable of penetrating any current and prospective 
missile defense systems,'' end quote.
    I guess my first question is whether you would agree with 
me that that--those two statements taken together almost appear 
to imply steps toward a 21st century nuclear arms race between 
the United States and Russia.
    Admiral Mullen.
    Admiral Mullen. I mean, tied specifically to the purpose of 
this hearing and whether we should renew--sorry, extend New 
START, I think the chances of igniting that kind of race go up 
exponentially if we do not extend, first point.
    Second, actually--and I think you were talking about 2016--
I've seen reports in the media as recently as this morning that 
Putin and President Trump have actually talked in a 
constructive positive way about getting together on this 
treaty.
    So it is difficult to know, as in--as it oftentimes is, you 
know, what is real here. I am encouraged by that, quite 
frankly, because if they send that signal I think it will be 
relatively easy to do that.
    So I am--maybe I am more optimistic than pessimistic at 
this point because of their recent public statements about 
where they should go.
    Ms. Wild. Assuming that they maintain those positions?
    Admiral Mullen. Yes, ma'am.
    Ms. Wild. Anybody else care to comment?
    Mr. Vaddi.
    Mr. Vaddi. Sure. Thank you for your question.
    Ms. Wild. Thank you.
    Mr. Vaddi. I think that there has been and maybe always 
will be an incipient qualitative arms race, even when the U.S.-
Russia nuclear relationship is governed by a treaty.
    You know, past arms control treaties such as the START 
treaty banned specific types of technologies like air-launched 
ballistic missiles, strange basing arrangements for ICBMs. New 
START permits a little bit more flexibility on both sides 
because both parties are modernizing their nuclear forces.
    What is important about New START is it caps the 
quantitative arms race. Each country can only deploy so many 
operational readily available for use nuclear weapons at a 
given moment and that's why continuing New START is important 
to curbing the arms race where possible.
    I mean, again, going back to my previous comments, the U.S. 
has technological capabilities and know-how that Russia does 
not, and I find it hard to believe that the U.S. would not 
approach a negotiation for a new arms control agreement, 
whether that is bilateral or multilateral, without seeking to 
preserve some of those advantages.
    Ms. Wild. Thank you. Anybody else want to comment on that?
    Ms. Gottemoeller. If I may, I will just briefly comment.
    Ms. Wild. Thank you.
    Ms. Gottemoeller. I have been--I have been concerned that 
there is, clearly, a--well, there are competing budgetary 
demands and Admiral Mullen already referred to how we have had 
to think carefully about how we will get the right support, the 
degree of support needed for the modernization of the U.S. 
nuclear arsenal over the next decade. Very important debates in 
this country about that, budgetary concerns to focus on.
    I begin to worry that Mr. Putin does not face any of those 
same constraints and if he chooses to put in place an continue 
a pretty irrational program like the so-called Burevestnik, the 
nuclear arms cruise missile that is so dangerous because it is 
highly radioactive--the propulsion system is highly radioactive 
so difficult to operate.
    We abandoned these kinds of systems in the 1950's because 
they were so dangerous to operate. So there--here we have a 
certain discipline that the budgetary process applies, which I 
fear does not apply in the Russian Federation.
    Ms. Wild. And if I could just stay with you--is mutual 
assured destruction still a legitimate deterrent?
    Ms. Gottemoeller. I think the importance we have now is 
that we have the parity, the balance of forces, and that we 
both have a good reliability and redundancy in our forces and 
so they know that they cannot get away with a first strike, 
that in fact they would suffer a devastating retaliatory 
strike. So in that way they are deterred. And it is the same 
for us.
    Ms. Wild. Thank you. With that I yield back.
    Chairman Engel. Thank you.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman. Over here.
    Russian officials have said they agree that arms control 
treaties should include other nuclear arms nations. Although 
the statement seemed to have been aimed at the inclusion of 
U.S. allies like the U.K. and France.
    Ms. Gottemoeller, given Russia and China's fraught recent 
history and physical proximity, does Russia have a national 
security interest in drawing China into New START and other 
arms control treaties and can we expect Russia to take an 
active role in bringing China to the table?
    Ms. Gottemoeller. it is a good question, ma'am. They have 
taken China's part in these periods while China has been 
holding everyone at arm's length in this administration and 
saying, we do not want to participate.
    Mrs. Wagner. Right.
    Ms. Gottemoeller. And the Russians have essentially said, 
well, you hear what China says. They do not want to 
participate.
    So up to this point, they have not in any way tried to 
press China to come to the negotiating table. I do think, just 
as you say, that there are certain incentives on the Russian 
side for them to help get the Chinese into a process.
    The Chinese have never had to negotiate on limits or 
reductions of any kind in this sphere. So I can see the 
rationale there. But at the moment, they have not been pressing 
them.
    Mrs. Wagner. Admiral Mullen, has the United States nuclear 
force posture been based on the treaty's extension and 
certainty that it provides and, if so, how would a failure to 
extend New START impact the military's strategic stability 
planning? How much effective existing nuclear modernization 
plans and such?
    Admiral Mullen. I would--first of all, I literally do not 
have the details because I am not on the inside anymore. But my 
expectation would be that we've been very much in compliance, 
first of all.
    Second, and it is come up a couple times, I think it is 
really important to make sure that we have the resources 
dedicated to the upgrading of our--and modernizing of our 
industry--of our nuclear arsenal, if you will.
    I really do not know where that stands. That was actually 
negotiated as a part of the ratification process so it is not 
cemented into the treaty itself and it was a commitment on both 
sides to provide the resources. And so committing to that would 
put us in a position, and I think as Ms. Gottemoeller has 
Stated, put us in a position--any other witnesses--to actually 
move ahead if this thing just--if this stopped.
    I do not advocate for that because I think there are lots 
of down sides associated with that. So I think we are fully in 
compliance. We are as ready as we are required to be and I 
wouldn't be overly concerned about that. If I were concerned 
about one thing, it'd be where we stand in the modernization 
and upgrade.
    Mrs. Wagner. Yes. That--I am just wondering how does it 
affect our existing nuclear modernization plans.
    Admiral Mullen. You mean if we walk from this?
    Mrs. Wagner. Yes.
    Admiral Mullen. I think--I mean, it is, quite frankly, 
going to depend on the priority for the administration. it is a 
lot of money. I think my recollection was back in 2010 the 
number was about $5 billion that we needed to put into it to 
commit to in the FIDP at that particular point in time. So it 
is billions.
    How much of it is--and I know we have invested a lot. It 
would be based on the status and the priorities for the 
administration to upgrade and commit--continue to commit 
resources to the entirety of the nuclear capability.
    Mrs. Wagner. Thank you, Admiral Mullen.
    Mrs. Wagner. Mr. Myers, do you believe there are any gaps 
in the verification regime and, if so, what can we do to 
improve them as part of the talks more and extension?
    Mr. Myers. Well, thank you for the question.
    it is a hard question to answer because you do not know 
what you do not know. But the level of confidence here in the 
United States on our ability to detect noncompliance on the 
Russian side is very, very high. That's No. 1.
    No. 2, over the life of the New START treaty we have no 
evidence of cheating on their part.
    Three--and to me this is the most important--the 
individuals charged with carrying out the verification missions 
were also involved in the drafting of the verification 
procedures and the language.
    I commend Under Secretary Gottemoeller at the time and 
Chairman Mullen at the time for having the DTRA inspectors at 
the table with them because it was not an issue of some things 
negotiated and it is delivered to the inspectors and say, now 
go do it. They were actually----
    Mrs. Wagner. Verifiers were there at the table during----
    Mr. Myers. Absolutely. So at the end of the day, treaties 
are compromises. You never get everything you want. But I will 
tell you, having talked and walked and watched these 
individuals do their job and exercise, they were very 
confident.
    Mrs. Wagner. Right. Thank you. My time has expired.
    Mr. Chairman, I yield back.
    Chairman Engel. Thank you.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman. I want to commend you 
and ranking member for your leadership on this issue for 
holding this hearing and for doing it in a bipartisan way.
    I want to followup on my good colleague from Missouri's 
questions--Mrs. Wagner--about what if this goes away. I mean, 
if New START went away, if we, for whichever reason, we would 
have no limits on Russia's nuclear forces for the first time 
since 1972 and this would come at a time when Russia has been 
modernizing its nuclear forces.
    So what would happen if either New START expires without it 
being extended or if the U.S. withdraws from the treaty? I am 
asking you in a broader sense and, in particular, about, you 
know, what Russia would do, in your estimation.
    Mr. Vaddi.
    Mr. Vaddi. Sure. Thank you for your question.
    Maybe I will focus my remarks on what we lose in terms of 
information----
    Mr. Levin. Yes.
    Mr. Vaddi [continuing]. And I am happy for others to, 
hopefully, chime in on the broader Russia strategic intentions 
question. So as I mentioned before, New START verification and 
monitoring works hand in hand with the intelligence community.
    You know, Admiral Richard, who is the new incoming 
strategic command commander, mentioned in responding to hearing 
questions that the intelligence community would likely have to 
adjust its collection priorities and capability investments to 
compensate for the loss of information provided by data 
exchanges and inspections if New START were to go away.
    In reality, it is unlikely that the intelligence community 
could replicate the information gained through New START and, 
you know, we are not talking about the U.S. Government, which 
publicly declares information related to its strategic nuclear 
forces.
    In 2014, the U.S. military put on the DoD website our plan 
for a New START force structure. We are talking about the 
Russian government and it is unlikely the Kremlin is going to 
publicly share information regarding its nuclear forces. Right 
now, it is forced to share that information with U.S. 
Government experts as part of the New START treaty.
    The effects may not be immediate. It may not be February 
6th or 7th of 2021. We see the problem, the lack of confidence 
that starts to emerge. It will be in the years afterwards and 
as others have spoken about, and Ms. Gottemoeller made this 
comment specifically, we do not necessarily know what Russia 
may do if the treaty is allowed to expire.
    But given Vladimir Putin's behavior over the past decade 
plus, one, we can be sure that there is some contingency plan. 
I think the Russians are long-term planners.
    And two, what that will likely result in is the U.S. having 
to take another look at its own modernization planning, its own 
intelligence collection assets, and moving priorities away from 
other collection targets like North Korea, Iran, China, and 
other countries that have missile programs.
    Mr. Levin. Admiral Mullen, you have been--I know you are 
not on the inside anymore but, you know, I just wonder--I just 
have grave concern about the situation for nuclear 
proliferation and for what happens between our country and 
Russia if this goes away. What are your thoughts?
    Admiral Mullen. This is almost a signal that it is okay to 
increase--around the world, quite frankly--anybody that's got 
nuclear weapons to increase the size of their arsenal, one.
    The other is strategically in could not tell you the exact 
year but 2002, 2003, 2004 Putin made a very conscious decision 
to invest in this strategic forces and he continues to do that. 
And yes, he's got limited resources. We know that.
    But he's been very consistent here over what is now almost 
two decades to continue to make that investment and there is--I 
mean, we do not know for sure what would happen. But, 
certainly, based on--based on what I know or what I think I 
know about him, he would continue to invest and, quite frankly, 
can we take the risk that leaving the New START would generate 
in terms of a future arms race and then try to get a handle on 
that.
    I think the risk of that is far too high, despite the fact 
we wouldn't know for sure what he would do.
    Mr. Levin. And what does it do to our ability to get China 
and others to the table to reduce nuclear arsenals, you know, 
across the board?
    Ms. Gottemoeller?
    Ms. Gottemoeller. I do not--oh, I am sorry.
    Mr. Levin. No, go ahead. Go ahead.
    Ms. Gottemoeller. Sir, I do not see any impetus or leverage 
for the Chinese to join in a negotiation should New START go 
away.
    And furthermore, I wanted to stress the point I made in my 
opening remarks that the Russians have a capability to upload 
warheads and do it rather quickly. So without deploying a 
single additional missile they could go from 1,550 deployed 
warheads possibly to as many as 2,550 deployed warheads. That's 
a big targeting problem for our strategic command and could 
result in some significant difficulties and crises in terms of 
stability.
    Mr. Levin. My time has--go ahead, Mr. Myers.
    Mr. Myers. Yes.
    Mr. Levin. Briefly, I guess, since my time has expired.
    [Laughter.]
    Mr. Myers. Yes, sir. So--yes, sir. One of my concerns, to 
add on to everything else that was said, the longer gap would 
extend the greater chances for miscalculation because we--you 
have heard already about our concerns about how much we would 
see, how much we would know without the data exchanges----
    Mr. Levin. Right.
    Mr. Myers [continuing]. Without the inspections. The 
Russians do not have anywhere near the capabilities that we do 
beyond those things to make any kind of determination on intent 
and without those types of things the chances of 
miscalculations inevitably go higher as time goes on.
    Mr. Levin. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Engel. Thank you.
    Mr. Perry?
    Mr. Perry. Thanks, Mr. Chairman. I thank the panel for 
their attendance today. Just listening to my good friend and 
his questions, Ms. Gottemoeller, I was going to ask a question 
about China.
    Assuming that we do a New START treaty which encumbers the 
United States and Russia, what is the--what is the impetus for 
China to constrain themselves? What is the impetus for Pakistan 
to constrain or anybody?
    And you said that without this that--without the treaty 
there would be constraint. There would be no leverage. But what 
is--what is the leverage if those other countries aren't 
included but America and Russia are constrained?
    Ms. Gottemoeller. As my colleague, Mr. Vaddi, pointed out, 
sir, the Chinese have so many fewer strategic nuclear delivery 
vehicles, very much smaller strategic nuclear arsenal.
    I really think the incentive for the Chinese can be 
developed in the near-term period. Getting a handle on their 
intermediate-range systems, which are the ones that are the so-
called carrier busters, they are the ones that really concern 
our military as well.
    So if we can create an incentive for the Chinese to start 
to constrain those systems because they are worried about 
proliferation--Russian proliferation of such systems, perhaps 
the United States, India, Pakistan, et cetera, that is where I 
think we could begin to get some traction with the Chinese on 
limitations and constraint.
    But because their arsenal is so much smaller in terms of 
strategic nuclear weapons it is very hard to think about how 
they would agree to constrain when the U.S. and Russia are up 
at 700 delivery vehicles and they are way, way down in terms of 
numbers of ICBMs.
    Forgive me, sir. I do not have the numbers at my 
fingertips. But very, very few numbers by comparison with ours.
    Mr. Perry. does not it give them kind of a blank check if 
we are constrained and they do not have to be concerned with 
any constraints at all? does not it give them kind of a blank 
check to work on both?
    Ms. Gottemoeller. I think we have to be very alert to them. 
We call it rushing to parity, that they would try to rush to 
parity with----
    Mr. Perry. What would stop them? I do not see anything that 
would stop them except resources.
    Ms. Gottemoeller. Yes. Well, at the time their doctrine 
stops them. They say they are committed to only no first use 
and a second strike, you know, capability and that is it. But 
we have to keep a very sharp eye to see if they are changing 
that policy.
    Admiral Mullen. Sir, if I could----
    Mr. Perry. Yes, sir.
    Admiral Mullen [continuing]. Just make a quick comment 
because Pakistan has come up a couple times. I mean, the 
deficit that Pakistan has militarily with respect to India, and 
India is their existential threat, can only be made up to some 
extent with their nuclear arsenal.
    That is their ticket to the future and that's how they see 
it, and getting at that long term. That's not going to happen 
quickly. I spent--I spent a lot of time in Pakistan tied to the 
Afghan war specifically. And so it is a huge challenge.
    My own view of that is this is the responsibility of a 
country like India to figure out how they are going to make 
that work and until we see them starting to work together in a 
way that incentivizes both of their future, Pakistan is going 
to continue to build them just to take care of itself. 
Otherwise, and it is a deterrent for them because on the 
conventional side India could overwhelm Pakistan just like 
that.
    Mr. Perry. So it seems to me, based on the conversation--
and I am trying to figure out what the right answer is on New 
START because I hate to constrain ourselves and I understand 
from Mr. Myers and from others that there have not been 
infractions on the current treaty that we know of, which is--
which is curious but good.
    But I am concerned about leaving some of the other actors 
out while we pursue this--constrain ourselves and do not engage 
them at all and I wonder if this is an opportunity that we 
should take to maybe they are not included in New START but 
maybe they are engaged in something separately at the same time 
since it is going to be topical.
    They are going to--everybody is going to be watching and it 
is an opportunity to say, you know, we are not absolving you 
folks either.
    And I agree, Ms. Gottemoeller, they are not going to--they 
might rush to parity and they are certainly not going to want 
to be constrained where they are knowing--China, in 
particular--where we are.
    But I am not sure we see the entire picture--we are looking 
at the entire picture right now and I think that that's a 
little concerning.
    Just out of curiosity, because there have been infractions 
from Russia on other--on other agreements, why do you suppose 
that we--there either are none or we have found none and we, I 
think, generally the consensus is we feel they have been good 
actors.
    Why is that? Because they put their attention elsewhere? 
Because they--I just--I do not believe it is all good will. 
Sorry, I just do not.
    Yes, sir?
    Mr. Myers. I will get us started. I know the admiral has 
discussed this a little bit earlier and I will leave time for 
him to respond. But they were--they have as much to gain from 
this arms control process as we do. They truly do.
    They are extremely worried and concerned about our 
strategic systems. They understand and, I think, make a 
differentiation between intermediate and strategic. I also 
think that there is a level of recognition that, given our 
capabilities, that we would catch them.
    None of these are definitive and none of these are the 
exact--you know, no questions asked. That's the answer to the 
question. But I think these all make up part of the Russian 
psyche.
    I think it is all part of their decisionmaking. I think, at 
the end of the day, they also understand the benefit of the 
United States being constrained and having that helps them.
    No matter how they are always trying to get the edge just 
like we are, no matter how they are always trying to come up 
with a new, improved, better, what have you, I think at the end 
of the day they have as many benefits of this as we do and they 
do not want to see it go, either.
    Chairman Engel. Thank you very much.
    Ms. Spanberger?
    Ms. Spanberger. Thank you, Mr. Chairman, and thank you so 
much to our witnesses today for being here.
    And I would like to start with a question for you, Ms. 
Gottemoeller. Former National Security Advisor John Bolton 
suggested that if there were political will on both sides the 
United States and Russia would be able to extend New START or 
even negotiate a new treaty before the February 2021 deadline.
    So my question is actually a feasibility question, because 
recent press reports indicate that the State Department's 
Office of Strategic Stability and Deterrence Affairs has 
declined from 14 staffers in 2017 to four currently, and this 
is the office that is generally considered to house much of 
State Department's expertise regarding U.S.-Russian arms 
control agreements.
    Similarly, many of the remaining senior leadership members 
and political appointees at the State Department do, in fact, 
not have the same level of experience in arms control 
negotiations that we have seen over the years.
    So my question is do you believe that if the administration 
at this time decided to renegotiate New START that the State 
Department would, in fact, have the necessary resources and 
personnel and background of experience to restart these 
discussions--sorry, no pun intended there--and to best 
represent U.S. interests?
    Ms. Gottemoeller. Ma'am, I have taken note of comments of 
this type in the press and in speaking with people in the 
administration I know that there is a view that there has to be 
a rebuilding of some of those capabilities and capacities, 
particularly in the State Department, because they have--they 
have been whittled away in recent years.
    I will emphasize, though, and I want to refer to a point 
that Mr. Myers has made several times. The degree to which I 
benefited, we benefited, during the New START negotiations and 
having a huge amount of basic expertise among our inspectors, 
who have worked now not only on New START but back into the INF 
period from the last 1980's so years of experience accumulated 
there, and also weapons operators. They turned out to be some 
of the finest diplomats we had working on the negotiations.
    Those guys would have been--and gals--who have been down in 
the ICBM silos or operating the submarines, the bombers. So we 
have a lot of natural diplomats in our government.
    So in the end of the day I do agree and believe that the 
rebuilding of the State Department capacity in this regard 
should be effected, should be carried forward. But we also have 
a lot of natural talent in the government.
    Ms. Spanberger. And if you were to go about beginning to 
renegotiate or begin these discussions, what sort of buildup--
and if this is something you can estimate--do you think that it 
would require to put the necessary personnel in place to begin 
really meaningful discussions?
    Ms. Gottemoeller. Well, as I recollect from my time as 
under secretary, that there is a certain amount of authority 
that is invested in the Under Secretary for Arms Control and 
International Security and that I think that that authority to 
hire on a rather expedited basis could be put to good use in 
this regard.
    Ms. Spanberger. Thank you very much, ma'am.
    Mr. Myers, would you like to comment or add anything to 
that?
    Mr. Myers. No, ma'am, other than to confirm what Ms. 
Gottemoeller just said. The under secretary--harkening back to 
my days as a staffer on the Senate Foreign Relations Committee, 
the under secretary does have significant amount of authority.
    it is a brilliantly written piece of legislation and she--
he or she would have the ability to staff up quickly if needed.
    Ms. Spanberger. And Mr. Myers or to anyone else who is 
serving as a witness today, are there any additional 
authorities or anything else from a brilliant legislative 
perspective that you might recommend for the future for things 
for us to consider, those of us with oversight over the State 
Department, that would be helpful to either these sorts of 
negotiations in the future or others?
    Admiral Mullen. I think the question on people is a great 
question and I would stay with that. I agree that if this were 
to happen the people are out there.
    They may not be working for the government right but there 
are incredible professionals and many of them would come back 
if they knew this was going to be a very viable negotiation and 
with the potential outcome.
    The other thing I would--it is not--it is legislation but 
it isn't, is, you know, where is the money and that is always 
an interesting question, and where is it being spent, what are 
the priorities for in the Pentagon, quite frankly, for the 
arsenal overall and where do we stand in getting a chalk line 
drawn on exactly where we are right now I think is really key 
and there is an opportunity with the discussion of this to be 
able to understand that a whole lot better.
    Ms. Spanberger. Thank you very much. I appreciate all of 
your participation today. Thank you so much for your comments 
and I yield back, Mr. Chairman.
    Chairman Engel. Thank you.
    Mr. Malinowski?
    Mr. Malinowski. Thank you, Mr. Chairman.
    Ambassador Gottemoeller, you spoke in your testimony about 
the importance of the principle of parity in past and present 
arms control agreements between the United States and Russia, 
or the Soviet Union, in those days.
    How would that principle even begin to apply to United 
States bringing China into this kind of an arms control 
agreement. I mean, would they have to come up to our level? I 
cannot imagine us going down to their level very quickly. Does 
the principle apply?
    Ms. Gottemoeller. Parity was very much a decision that was 
made--Soviet Union and the United States--in earlier phases of 
negotiation, about two equals who are deterring each other and 
deterring each other from a first strike on their--on their 
forces on their country.
    And in the case of China, we have not, as the United States 
of America, had that same approach or policy. In fact, Chinese 
doctrine supports a so-called retaliatory approach where they 
want to have an assured second strike and they say they have a 
no first use policy.
    But they do not seek in the same way to, so to say, 
threaten us as nuclear equals in the way the Soviet Union did 
historically and now Russia does.
    So we are locked in this kind of nuclear embrace with the 
Russian Federation in the way we have not ever been with China 
before. So I, at the moment, would look for ways to avoid that.
    Mr. Malinowski. So this would be one of, potentially, many 
complicating factors in bringing China into this framework, 
which I think brings me back to the question of time. We only 
have a few months here.
    Are you or any other witnesses aware that the 
administration has actually done the ground work either with 
China or if our goal is to renegotiate the agreement with 
Russia to actually begin to be--have any chance of completing 
this process in that timeframe?
    Mr. Myers. Congressman, I am aware of several comments that 
members of the administration and I think the president have 
indicated. I do not--I do not believe there have been any cold 
hard negotiations or deep discussions and I--again, just to be 
clear, I think not to speak for the whole panel but I think 
most of us are trying to say extension has to come first and 
only then can you create the conditions to bring in additional 
systems or bring in additional countries.
    So I think it is not a is there time to do--to bring in 
China or include X, Y, and Z. Extend and then use that time 
period to expand.
    Mr. Malinowski. When you say it has to, it is not just a 
preference. it is a necessity. it is a practical necessity. I 
mean, there is really no other alternative other than the 
treaty lapsing.
    Mr. Myers. Yes, sir.
    Mr. Malinowski. Right. Okay. And were it to lapse, Admiral 
Mullen, you said essentially we would be left with a free for 
all between the United States and Russia.
    When was the last time there were no treaty constraints on 
the U.S. and Russian nuclear arsenals?
    Admiral Mullen. Well, I mean, Rose is the expert here. But 
when we get to the first ones in 1972, you know, pretty much 
everything before that was some version of a free for all and I 
do not have to--you are a young guy. I do not have to remind 
you of 1962----
    Mr. Malinowski. I want you to. Actually, that was my next 
question.
    Admiral Mullen [continuing]. And what happened.
    Mr. Malinowski. We have a broader audience. Say a little 
bit about the world before we had these treaty--those 
constraints.
    Admiral Mullen. Yes. I mean--I mean, back--and I was a 
relatively young lad at the time but, you know, there are--many 
people believe that we came very, very close to destroying each 
other and then you could argue how much of the world--that we 
almost went to nuclear war without any--obviously, without any 
constraints and there's no guarantee it going in either 
direction.
    it is just that if we let this go I think the risk goes up 
enormously if we cannot get it right for the future and the 
danger that's associated with that. From my perspective, it is 
not worth it.
    Mr. Malinowski. And we, therefore, chose to make these 
kinds of agreements with a Soviet Union that was our sworn 
enemy, rightly so, and it did not actually in any way constrain 
us from confronting the Soviets on other issues. Arguably, it 
actually freed us to confront them more safely. Isn't that 
correct?
    Admiral Mullen. It is, and what's important is they chose 
as well to do the same thing.
    Mr. Malinowski. Thank you. I yield back.
    Chairman Engel. Thank you.
    Ms. Omar?
    Ms. Omar. Thank you, Chairman. Thank you to our panellists 
for coming and being part of this important discussion.
    It is my understanding that every president since Kennedy 
has started or completed an arms control agreement in their 
first term and our current president is on track to break that 
streak.
    So I am curious if you all would talk to, I think--talk to 
us about what are the implications of this particular 
agreement, the New START, for allowing it to expire.
    What are--what are the implications? Is it nuclear war? Is 
there a narrative implication for arms control around the 
world? And please chime in. I would love to hear from all four 
of you.
    Ms. Gottemoeller. Perhaps I will start, ma'am.
    I think this is the year when a non-proliferation treaty is 
being reviewed--2020. This--we were discussing a moment ago the 
Cuban Missile Crisis. It started entering a number of both 
multilateral and bilateral negotiations involving the Soviet 
Union.
    The NPT was a signal accomplishment that entered into force 
in the early 1970's and has kept a number of nuclear weapons 
States sharply constrained in that time.
    So I think that this is a very important year to send a 
signal to the whole NPT family that nuclear arms control and 
reduction still matters.
    I am concerned, frankly, if New START goes out of force or 
is seen as unlikely to be extended that this will deal a 
significant blow to this larger non-proliferation system that 
keeps an explosion of nuclear weapons States from occurring on 
a global basis.
    So that's the point we have not gotten to yet today but I 
thank you for the opportunity to make it. Extending New START 
will be a good signal to the international community that we 
and the Russians still mean business about nuclear arms 
reduction.
    Mr. Vaddi. Just one brief comment to add on. Thank you for 
your question.
    I think long term if the United States signals it is not 
going to use arms control as a security tool any more as a way 
to sort of peacefully manage relations with adversaries, the 
intention that signals to adversaries today and potential 
adversaries tomorrow is that the United States is going to 
favor freedom of movement for its military and unilateralism as 
opposed to security cooperation to resolve some of these 
security challenges that face the U.S. and other countries 
together.
    And as Ms. Gottemoeller pointed out, with the review 
conference next year for the Nuclear Non-Proliferation Treaty 
where there is already an impatience among several non-nuclear-
armed States that the United States is not doing enough--that 
other nuclear powers is not doing enough to reduce their 
stockpiles.
    There is always potential that countries that are facing 
regional stability and security issues, such as in the Middle 
East or in South Asia, will take this as a sign that in fact 
nuclear weapons are going to be around for a very, very long 
time and we need to also take steps to increase our own 
arsenals. That is always the worry.
    Ms. Omar. Admiral--Mr. Mullen?
    Admiral Mullen. I do not have a lot to add with respect to 
that. I worry a great deal that sort of the race is on. You do 
not know for sure, but the risk of that happening goes up 
enormously. This has been a very extensive long-term controlled 
regime to control the most devastating weapons man has ever put 
on Earth and we need to continue to do that, and then send the 
signals.
    And it is really complex stuff, but send the signals we 
continue to reduce them. And in that, because this was part of 
my mind set in 2010 when I negotiated this, with China coming 
we are going to have to figure that out.
    That is a great question, because they are going to 
continue to build and they are policy limited right now. And 
then what happens to the other countries--U.K., France, et 
cetera.
    Those things need to be--need to be negotiated or figured 
out in the future. But the centerpiece for this for decades for 
safety in the world have been the Soviets, now Russians, and us 
in a very stable agreement over an extended period of time to 
handle these most dangerous devastating weapons.
    Ms. Omar. So control through negotiations and making sure 
that these deals are implemented is important because I think 
for a lot of the public who might be watching today--hopefully, 
they are tuning in--they are not easily following this 
conversation, right.
    They do not understand that this is a deal that just needs 
to be extended and it is one that needs to happen only between 
the presidents. it is not that Congress is an obstacle to this 
deal taking place.
    And so when we hear the president talk about how he is 
capable of making deals, this is one of those really simple 
situations where he can make a deal and he's choosing not to 
because, you know, these are deals that are made by Obama and 
in many cases we are getting out of international deals because 
the previous president is not one that this current president 
likes to follow, and our world is being placed in danger 
because of a political spat.
    And so I thank you all for urgently talking about the need 
to not allow for this to expire and for the chairman for 
allowing this conversation to take place.
    Thank you. I yield back.
    Chairman Engel. Thank you very much.
    Well, this is the moment you have all been waiting for. We 
have--as you can tell, there was enormous interest in this 
subject and I want to thank the four of you for being excellent 
witnesses. I know I learned a great deal and I know others did 
as well.
    And with all the things going on in Washington today we 
certainly had a lot of members here listening to what you have 
to say.
    So I thank you for all the work you have done in the past 
and the work you will be doing in the future, and I am always 
amazed at the wonderful talent we have. I guess that's why 
things keep working well, despite us raising our hands 
sometimes and fretting.
    But we have nothing to fret about because what I heard 
today was a lot of clarity and a lot of common sense, and I 
just hope that we will heed the suggestions and the discussions 
that you had today. So thank you so much for coming.
    We are adjourned.
    [Whereupon, at 4:34 p.m., the committee was adjourned.]

                                APPENDIX

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       STATEMENTS SUBMITTED FOR THE RECORD FROM COMMITTEE MEMBERS
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
